                           U.S. Department of Agriculture
                              Office of Inspector General
                                          Midwest Region




              Audit Report
   Cooperative State Research, Education
           and Extension Service’s
Progress to Implement the Improper Payments
           Information Act of 2002




                          Report No. 13601-0001-Ch
                                     February 2006
                            UNITED STATES DEPARTMENT OF AGRICULTURE
                                                    OFFICE OF INSPECTOR GENERAL

                                                        Washington D.C. 20250




DATE:                  February 8, 2006

REPLY TO
ATTN. OF:              13601-0001-Ch

TO:                    Colien Hefferan
                       Administrator
                       Cooperative State Research, Education and Extension Service

THROUGH: Ellen Danus
         Chief
         Policy, Oversight, and Funds Management Branch
         Office of Extramural Programs

FROM:                  Robert W. Young             /s/
                       Assistant Inspector General
                        for Audit

SUBJECT:               Cooperative State Research, Education and Extension Service’s Progress
                       to Implement the Improper Payments Information Act of 2002


This report presents the results of our audit of the Cooperative State Research, Education
and Extension Service’s (CSREES) fiscal year (FY) 2005 efforts to implement the
Improper Payments Information Act (IPIA) of 2002. 1 Our audit of CSREES was
conducted as part of a Departmentwide effort to evaluate the progress to implement the
IPIA, focusing on the most recent guidance issued by the Office of the Chief Financial
Officer (OCFO). Our review of the risk assessment completed for extension activities
funded under the Smith-Lever Act—one of four CSREES programs with estimated
outlays of $50 million or more—disclosed that sufficient evidence had not been compiled
to support CSREES’ conclusion that the program was at low risk for improper payments.
As a result, we were unable to verify that the agency’s ranking of the program was
appropriate.

BACKGROUND

In November 2002, the President signed the IPIA, Public Law (P.L.) 107-300, which
requires the head of each agency to annually review all programs and activities the
agency administers to identify those that may be susceptible to significant improper



1
    Public Law (P.L.) 107-300, November 26, 2002.
Colien Hefferan                                                                                                                   2


payments. For each program or activity identified, the agency is required to estimate the
annual amount of improper payments. If the estimate is over $10 million, the agency
must also report the estimate to Congress along with the actions the agency is taking to
reduce those improper payments. In May 2003, the Office of Management and Budget
(OMB) issued guidance to agencies for estimating and reporting improper payments. As
the lead agency for coordinating and reporting the Department’s efforts to implement the
IPIA, OCFO provided additional instructions to USDA agencies in August and October
2003.

In FY 2004, we performed audits of six agencies, including CSREES, 2 to determine
whether the agencies performed risk assessments in compliance with the OMB and
OCFO guidance for implementing the IPIA. Our review of CSREES’ risk assessments
disclosed that, rather than conducting a risk assessment for each program as a basis for
determining the programs level of risk to improper payments, the agency inappropriately
limited their process to a mathematical calculation. CSREES officials multiplied program
outlays by 2.5 percent, and if less than $10 million, they concluded that individual risk
assessments were not required and thus they did not have to determine if controls were in
place to mitigate the risk that improper payments occurred. 3 We also performed an audit
of OCFO 4 in FY 2004, to evaluate its actions to implement the IPIA—specifically, its
efforts to assess the Department’s programs for the risk of improper payments. Based on
the results of that audit and the conditions reported in the agency audit reports, we
recommended that OCFO strengthen its guidance to agencies for performing risk
assessments.

OCFO issued more prescriptive guidance in November and December 2004. The revised
OCFO guidance included specific instructions for agencies to follow in order to meet
IPIA requirements, focusing on those programs most likely to be at significant risk for
improper payments. The guidance divided programs into six categories, ranging from
programs with less than $10 million in program outlays to programs exceeding
$400 million in program outlays. As part of the guidance, OCFO issued instructions for
performing tests of transactions in each program to determine the effectiveness of internal
controls in preventing improper payments. To support their conclusions regarding
programs’ susceptibility to improper payments, agencies were to include the results of
these tests in each program’s risk assessment. The guidance also included key milestones
for agencies to submit information, allowing OCFO and OMB to assess the agencies’
progress in completing all risk assessments by the established deadline of April 30, 2005.

OBJECTIVE

The objective of the audit was to assess the adequacy of CSREES’ implementation of
OCFO’s revised guidance regarding improper payment reporting requirements, including
2
  CSREES Compliance with the Improper Payments Information Act of 2002, Audit No.13601-2-At, dated January 2005.
3
  OMB defined significant improper payments, when additional actions to quantify the amount of improper payments and develop
corrective actions are required, as annual improper payments exceeding both 2.5 percent of program outlays and $10 million. See
OMB Memorandum M-03-13, dated May 21, 2003.
4
  USDA Compliance with the Improper Payments Information Act of 2002, Audit No. 50601-8-Ch, dated January 2005.
Colien Hefferan                                                                         3


(1) agency actions to conduct risk assessments of selected programs and report results to
OCFO, and (2) agency conclusions that programs were at low risk for improper
payments.

SCOPE AND METHODOLOGY

We performed our audit of CSREES compliance with the IPIA at CSREES headquarters
in Washington, D.C. We conducted our fieldwork from July through August 2005. The
audit was performed in accordance with Government Auditing Standards.

We reviewed the risk assessments submitted to OCFO as of April 30, 2005, and
judgmentally selected CSREES’ extension activities which are funded under the Smith-
Lever Act, with an estimated outlay totaling $275.9 million for FY 2005. We based our
selection on our preliminary analysis of vulnerability criteria, outlay dollars, and the
extent and adequacy of the risk assessment documentation provided to OCFO. This
program represented 40 percent of the estimated outlays for the 4 CSREES programs that
fell into OCFO’s top 3 categories for program outlays.

To accomplish our audit objectives, we interviewed the appropriate officials and
reviewed the following documents:

       •   the IPIA, OMB guidance, and OCFO directives,
       •   regulations, program procedures, and handbooks,
       •   prior Government Accountability Office (GAO) and Office of Inspector
           General (OIG) reports,
       •   FY 2005 budget summaries, and
       •   agency risk assessments.

FINDING AND RECOMMENDATION

CSREES DID NOT PERFORM ADEQUATE TESTS OF TRANSACTIONS

Since our FY 2004 audit, CSREES had improved its process for performing risk
assessments by identifying major vulnerabilities to improper payments and the internal
control measures needed to mitigate those risks. However, our review disclosed that the
agency had not compiled and analyzed sufficient information to support the low risk
ranking it assigned this program in the FY 2005, risk assessment. Specifically, the
agency had not developed a thorough test of transactions to evaluate the program’s
controls over improper payments, as required by OCFO guidance. While CSREES
officials had performed a test of transactions for the award phase of the grant process,
they had not developed a test of transactions to address the effectiveness of the controls
in the post award phase of the grant process. CSREES officials stated that the process
Colien Hefferan                                                                               4


had not been staffed properly. We concluded that controls were not in place, as evidenced
by inadequate staffing and incomplete tests of transactions, to provide reasonable
assurance that the risk assessment process adhered to OCFO’s guidance. As a result, the
conclusions CSREES reached and submitted to OCFO in the annual risk assessment may
not be correct.

According to OCFO guidance, 5 agencies must, as part of their program risk assessments,
test a judgmentally selected sample of transactions “to determine the effectiveness of
program design and internal controls in the prevention of improper payments.”

CSREES reported in its risk assessment that improper payments in the Smith-Lever
Program can occur in either the award or post-award phase of grant funding. However,
the objectives of the detailed testing set forth in the risk assessment was limited to
determining if funds were released to the proper recipient, for the correct amount, and
whether the grantees met matching fund requirements prior to the release of funds by the
agency. The critical program vulnerability of grant funds being improperly spent (for
purposes not in accord with the grant agreement) was therefore not addressed as an
objective of the testing.

CSREES did not visit the institutions or conduct any other tests to verify that the grant
recipients spent the Federal funds appropriately in the post award-phase. The risk
assessment identified controls in the post award phase as consisting of reviewing progress
reports, communicating with key university personnel, and making site visits to grantees.
The purpose of the tests of transaction in the risk assessment process, in part, is to
evaluate the adequacy of the design of the control structure and its functionality. If the
tests are not performed, no assurances can be garnered.

CSREES officials, therefore, did not have sufficient information to support their
conclusion that the Smith-Lever Program was at low risk for improper payments.

The Chief of the Policy Oversight and Funds Management Branch explained the lack of
staff, specifically the difficulty in recruiting a senior staff accountant, contributed to their
inability to properly assess the program. However, she stated that CSREES intends to
develop a test of transactions to better evaluate the effectiveness of internal controls over
improper payments for FY 2006. In addition, she stated they anticipate having a senior
accountant by the end of FY 2005, to assist in meeting OCFO requirements and to better
evaluate the effectiveness of internal controls in FY 2006.




5
    USDA FY 2005 Tests of Transactions Guidance, dated December 8, 2004.
Colien Hefferan                                                                             5


RECOMMENDATION

Strengthen internal controls over the risk assessment process to provide for adequate
staffing and oversight designed to identify and correct areas where OCFO’s guidance was
not met.

AGENCY POSITION

CSREES concurred with the recommendation in its response, dated December 13, 2005,
(see exhibit A). To improve oversight, CSREES hired a senior staff accountant on
October 17, 2005, and will now perform transaction testing for the post award phase of
the grant process at six land-grant institutions each year as part of its annual vulnerability
assessments. CSREES will complete its risk assessment process, including onsite post
award transaction testing, by February 28, 2006, which is in agreement with OCFO
requirements.

OIG POSITION

We concur with the management decision. For final action, CSREES needs to follow its
internal procedures and provide OCFO a copy of CSREES’ risk assessment process for
conducting annual vulnerability assessments including onsite post award transaction
testing.

Final action on management decision should be completed within 1 year of the date of
management decision to preclude being listed in the Department’s annual Performance
and Accountability Report.

We appreciate the courtesies and cooperation extended to our staff during this review.
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 2
Exhibit A – Agency Response
                              Exhibit A – Page 2 of 2
Informational copies of this report have been distributed to:

Administrator, Cooperative State Research, Education and Extension Service
       Through: Chief, Oversight, and Funds Management Branch                5
U.S. Government Accountability Office                                        1
Office of the Chief Financial Officer
       Director, Planning and Accountability Division                        1
Office of Management and Budget
